@QCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 20-1678

DANIEL Z. CROWE; LAWRENCE K. PETERSON;
and OREGON CIVIL LIBERTIES ATTORNEYS,
an Oregon nonprofit corporation,
Petitioners,
v.
OREGON STATE BAR,
a Public Corporation, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE /

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE 1889
INSTITUTE AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5605 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of June, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

oman] Kence. 0. Liaoa? Qndineb Chil

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 4aii4s
